OFFICE OF INSPECTOR GENERAL




    EVALUATION OF THE
COMMISSION'S TRAVEL PROGRAM


        Audit Report
        OIG-AR-03-02




                         September 30, 2002
INSPECTOR GENERAL




UNITED STATES INTERNATIONAL TRADE COMMISSION
                                                                  IG-Z-042
                         WASHINGTON, D.C. 20436
 September 30, 2002

 MEMORANDUM

 TO:     THE COMMISSION

 We hereby submit Audit Report No. OIG-AR-03-02, Evaluation a/the
 Commission's Travel Program, for the Commission to implement our
 recommendations. We performed this audit at the request of the Director of
 Operations and the Travel and Transportation Officer and in response to
 Senator Charles Grassley's request to provide information on the
 Commission's Travel Program.

The Commission strengthened its controls over the Travel Program by
implementing an automated travel management system, Zegato, for processing
travel plans and expenses. Also, the Commission surveyed employee
satisfaction with Zegato and shared the survey results both with the employees
and with the Zegato vendor. Building on these positive efforts, further action
is needed to strengthen the Travel Program. The audit disclosed instances in
which employees inappropriately used their government-sponsored travel
cards; paid their bills late; filed expense reports late; and failed to retain
required supporting documentation. Due to the frequency and type of use, the
auditors referred three employees' travel card activity for OIG investigation.

We made six recommendations to address the Commission's need to: revise
official policies and procedures; strengthen oversight to ensure compliance
with travel regulations and discourage wrongful acts; reduce administrative
costs; and continue to improve customer satisfaction. We also considered, and
included where appropriate, the Commission's comments on our draft report.
The Commission concurred with our findings and the Commission's planned
actions met the intent of the recommendations.

We appreciate the courtesies and cooperation provided to our auditors during
this audit.                                              /-         .   r/7-?
                                                     /~ r· L£rk:--
                                                           Kenneth F. Clarke
                                                           Inspector General
 Evaluation of the Commission's Travel Program


TABLE OF CONTENTS

 I.     SUMMARY OF RESULTS                                                                          1

 II.    BACKGROUND                                                                                  1

 III.   OBJECTIVE                                                                                   3

 IV.    METHODOLOGY & SCOPE                                                                         3

 V.     DETAILS OF RESULTS                                                                          4

        A.     Official Policies and Procedures Should Be Revised                                  .4

               Recommendation 1                                                                     5

        B.     Oversight of the Travel Program Should Be Strengthened                               5

               Recommendations 2-4                                                                  8

        C.     Cost Savings and Additional Revenue Could Be Realized                               10

               Recommendation 5                                                                    10

        D.     Positive Steps Were Taken to Provide Strong Controls and User
               Satisfaction                                                                        11

               Recommendation 6                                                                    12

Attachment 1 - Governing Policies and Procedures Agencies Are to Establish (Title 41,
               Code of Federal Regulation, § 301-70.102                               13

Attachment 2 - Crosswalk between Zegato Travel System and the Federal Travel
               Regulations                                                                         14

Attachment 3 - User Comments on the Zegato Travel Management System                                17

Attachment 4 - Management's Response                                                               18




                                                       Office of Inspector General
                                                             u.s. Internati(mal Trade Commission
Evaluation of the Commission's Travel Program


I.        SUMMARY OF RESULTS

Commission employees must use their government-sponsored Citibank travel cards
(travel cards) to pay official government travel expenses. Inappropriate travel card use
violates the Citibank contract terms, abuses government resources, and compromises the
Commission's integrity. We found instances in which employees:

      •   Used travel cards for non-travel related purposes;
      •   Paid their Citibank bills late and/or had their travel cards cancelled for non-
          payment;
      •   Filed late travel expense reports; and
      •   Failed to retain required supporting documentation.

Also, the Commission has not updated official travel policies in more than 12 years.
Although the Travel and Transportation Management Officer issued subsequent
guidelines and communicated them to Commission employees, the Commission has not
authorized the updated guidelines as official policy.

The Commission obtained an automated travel management system (Zegato) for
processing travel plans and expenses. We validated that Zegato has been programmed to
automatically reflect the current Federal Travel Regulation (FTR). Also, the Commission
surveyed Zegato customer satisfaction and provided survey results to Zegato.

We made six recommendations to improve controls over the Travel Program. The
Commission can strengthen its Travel Program oversight and establish a compensating
control for authorized self-approved travel plans and expense reports. Also, the
Commission can achieve greater cost savings and additional revenue by curtailing
travelers' use of the Commission's Centrally Billed Account (CBA) in lieu of travel cards
issued to those travelers.


II.       BACKGROUND

The Commission's Director of Operations and the Travel and Transportation
Management Officer requested an audit of the Travel Program on August 16, 2001. They
requested the OIG to examine the Commission's travel policy and procedures in light of
the Commission's transition to the Zegato automated system. Subsequently, the OIG
answered a request from Senator Charles Grassley to provide information on our prior
audits and investigations of the Commission's Travel Program, including use of travel
cards.

Reducing federal travel costs has been a longstanding goal of the U.S. government. The
Travel and Transportation Reform Act of 1998, enacted to save money and improve
process efficiency, requires federal employees to use travel cards to pay their official
government travel expenses. Congress anticipated that, by using the travel cards,


                                                             Office of Inspector General
                                                                   u.s. Iniemauonol Trade Commission
Evaluation of the Commission's Travel Program


agencies would: (1) increase the rebate amounts received from travel card service
contractors; and (2) reduce administrative cost by consolidating travel and streamlining
travel fund advances.

Regulatory requirements for travel by federal civilian employees and others authorized to
travel at the government's expense are contained in 41 Code of Federal Regulations
(CFR), parts 300 through 301. To implement the requirements, the u.s. General Services
Administration (GSA) issued the FTR.

The FTR provides travel related guidance to both the agency and the traveler. For
example, the FTR states that a traveler lTIUSt: exercise the same care in incurring expenses
that a prudent person would exercise if traveling on personal business; obtain written or
electronic authorization generally prior to incurring any travel expense; and accept
responsibility, unless previously authorized, for expenses exceeding established
reimbursement limits. The government will not pay for excess costs resulting from
circuitous routes, delays or luxury accommodations or services unnecessary or unjustified
in the performance of official business.

The Commission participates in the government travel card program as part of the GSA
SmartPay program. This program provides federal agencies with a new way to pay for
commercial goods and services, as well as travel and fleet related expenses. GSA
established contracts with five service providers - Citibank, First National Bank of
Chicago, Mellon Bank, NationsBank (now Bank of America) and u.S. Bank. The
contracts are effective from November 30, 1998 through November 29,2003 with five
one-year options to renew. The Commission uses Citibank.

Of the 261 employees who held Citibank cards as of March 2002, 239 (92 percent) paid
expenses with individual accounts. The remaining 22 (8 percent) paid using the CBA.

Official travel results in significant expenditures for the Commission each year. In Fiscal
Year (FY) 2001, the Commission spent approximately $440,000 for travel costs from
funds appropriated for operating expenses.

Having abolished the Office of Finance and Budget effective May 10, 2000, the
Commission decentralized administration of its Travel Program. The Director of
Administration retained financial duties, administered by a new Office of Finance. The
Director of Operations assumed responsibility to manage travel policy and procedures,
administered by the Travel and Transportation Management Officer, who also serves as a
liaison with the travel agent and Zegato.

Effective April 30, 2001, the Commission required all employees to use the new travel
management system, Zegato, for all common carrier, lodging and car rental
arrangements.




                                                         Office of Inspector General
                                                               u.s. Intemat!(mal Trade Commission
                                             2
Evaluation of the Commission's Travel Program


III.     OBJECTIVE

We evaluated the Commission's Travel Program regarding temporary duty (TDY) travel
and transportation expenses. Specifically, we determined whether the Commission:

  ~    Established and communicated travel requirements and procedures to all employees,
       including approving officials; and

  ~    Implemented sufficient internal controls to monitor and adequately control travel
       expenditures so as to minimize fraud, waste and abuse.


IV.      METHODOLOGY AND SCOPE

We engaged Bert Smith & Co. (Independent Public Accountants) to assist in conducting
this audit. Fieldwork took place between March 2002 and May 2002. The audit scope
covered Citibank travel card charges and Zegato transactions from April 1, 2001 through
March 31, 2002.

We reviewed applicable policies and procedures and interviewed users, supervisors and
financial personnel to identify and evaluate the Commission's implementation of the
Travel Program. We determined whether separated employees retained their travel cards,
and we reviewed internal/consultant reports to identify actions and concerns previously
reported. Specifically, we evaluated:

  ~    Travel documentation filed by 49 travelers;'

  ~    User friendliness of Zegato and compliance with the FTR through interviews with
       the Commission's staff and contractor personnel;

  ~    General notices and emails issued by the Travel and Transportation Management
       Officer, as well as internal control policies and procedures as they relate to
       compliance with the FTR; and

 ..    Monthly Citibank reports on employee travel card activities.

The audit was conducted in accordance with Government Auditing Standards, 1994
Revision, as amended, promulgated by the Comptroller General of the United States.




I A sample of 43 was randomly selected by use of Excel random generation and was based on a

90 percent confidence level and error rate of 10 percent. The population included 571 travel
transactions from an Excel database for the period under examination. We added 6 other
transactions to our sample, which were judgmentally selected based on payment history.


                                                          Office of Inspector General
                                                                 u.s. huemauonal. Trade Comnussmn
                                              3
Evaluation of the Commission's Travel Program


v.      DETAILS OF RESULTS

        A. Official Policies and Procedures Should Be Revised

Travel policies and procedures were communicated to the Commission's employees
through agency-wide emails, the Intranet, and in-house training sessions. While these are
positive efforts, the Commission's official guidelines were outdated and guidance on
current issues was addressed ad hoc. By not issuing complete and official guidelines on
current policies and procedures, the Commission had no assurance that employees were
fully aware of their responsibilities and travel requirements.

The Travel and Transportation Management Officer communicated travel policies and
procedures to the Commission's employees. The Officer offered several training classes
on the use of the new automated travel system, Zegato. Additionally, the Officer advised
the staff on significant issues initially through Commission-wide emails and later on the
Intranet Travel page. Also, Zegato's home page contained a link to the FTR.

Although the Travel and Transportation Management Officer was proactive in addressing
travel issues, the Commission has not issued an Administrative Order or developed a
process to approve the information on the Travel web page as its official position. Also,
formal and complete guidelines were not updated to reflect current travel regulations and
the Commission's revised procedures. For example, the guidelines directed the traveler
to prepare paper documents to obtain authorization and reimbursement and make
transportation arrangements through a travel agent who is no longer under contract with
the Commission. These guidelines were included in the ITC Internal Rules Handbook,
titled Official Temporary Duty Travel Handbook, USITC 2301.1, dated June 1, 1989.

According to the directive, System ofInternal Rules, the Office of Administration
Director is responsible for maintaining the internal rules. All internal rules must be
reviewed and revised periodically to ensure that they are current and necessary. Every 3
years, the Office having primary responsibility must complete a formal review process
for all internal rules.

The Travel and Transportation Management Officer advised the auditors that the travel
guidelines were revised in August 2000, but the Commission had not yet completed the
review and approval processes. Although we did not review these revised guidelines
because they were in the initial processing stage, we believe the Commission should
ensure the issues discussed in this report either are addressed in sufficient detail or the
applicable FTR section is referenced. Additionally, 41 CFR § 301-70.102 (Attachment
1) directs each agency to establish its own policies and procedures governing specific
issues.




                                                          Office of Inspector General
                                                                 u.s. Intematicmal Trade Commission
                                              4
Evaluation of the Commission's Travel Program


Recommendation 1:
The Directors of the Offices of Operations and Administration should coordinate their
efforts to develop and implement a process to ensure that: (1) policies and procedures
posted on the Travel web page are approved by the Commission, and (2) an updated
Official Temporary Duty Travel Handbook is issued. At a minimum, the revised
handbook should address 41 CFR § 301-70.102 requirements and the issues discussed in
this report. Specifically, the handbook should document the cardholder's and
supervisor's responsibility associated with the Travel Program, e.g., proper use of travel
cards including bill payment; timely filing of expense reports; and obtaining exemption
from an FTR requirement.

Management Response and OIG Comment:
The Commission agreed with the recommendation. The Director of Operations will
revise the Official Temporary Duty Travel Handbook by March 30,2003. Part of the
Handbook will include policies and procedures regarding the Commission's Travel
Charge Card Program. Such procedures will be prepared by the Office of
Administration.

Additionally, the Director of Operations will direct the Travel and Transportation
Management Officer to work with the Office of Administration to develop a draft
Administrative Order establishing travel policies to be approved by the Commission.
That Order will also delegate development of implementing procedures to the Travel and
Transportation Management Officer by November 15, 2002.

The   oro concurred with the above actions.

        B. Oversight of the Travel Program Should Be Strengthened

The Travel and Transportation Management Officer (Operations) and the Finance Office
(Administration) generally provided oversight of the Travel Program. We found that the
Commission timely terminated Zegato access and cancelled travel cards of separated
employees. However, more needs to be done. The Travel and Transportation
Management Officer monitored travel activity to provide further guidance and identify
needed modifications to Zegato, and Finance reviewed miscellaneous expenses.
However, the Commission had not assigned oversight responsibility to ensure
compliance with travel regulations and to discourage wrongful acts. We found instances
where employees used individual travel cards for non-travel related purposes, paid
Citibank bills late and/or had their travel cards cancelled for non-payment, filed expense
reports late, and failed to maintain required documentation. Additionally, separation of
duties was weakened due to the Commissioners' self-approval for domestic travel, and
post reviews were not performed.




                                                         Office of Inspector General
                                                               u.s. Intemational Trade Commission
                                              5
Evaluation of the Commission's Travel Program


Unauthorized Use of Travel Cards

Twenty-two employees used their individual travel cards for non-travel related expenses.
We reviewed charges listed on Citibank's March 2001 through March 2002 statements
for all employees issued an individual travel card; determined whether an approved travel
authorization supported the expense; and interviewed certain employees.

We referred the activity of three employees for an OIG investigation due to frequency
and type of use. Of the remaining 19, most inadvertently had used the card, realized their
mistake and removed the card from easy access to avoid mistaking it for their personal
credit card. Two used the card for business purposes-such as training-that are not
appropriate for the travel card. During the audit we provided this information the
Director of the Office of Finance, who promptly issued an email reminding all employees
that training expenses were not to be paid with the employee's travel card.

Before using the travel card, the employee must sign an acknowledgement that the card
will only be used for official government travel. The FTR states the travel card may be
used only for official travel-related expenses, and employees who misuse their travel
cards may be subject to appropriate disciplinary action. Directive 4504.0, Personnel
Disciplinary and Adverse Action establishes standards and procedures to be followed
when disciplinary and adverse actions must be taken against employees.

According to its Director, the Office of Finance less frequently reviews the
appropriateness of travel charges when Finance's non-travel related workload increases.
During the scope of this audit, we found no evidence of a review or a referral to an
employee's supervisor for further action relating to any travel offense. We did find,
however, that the Director had been proactive and was working with Citibank to have on-
line access to view travel card activity. While having on-line access is a positive step, an
individual needs to be assigned the responsibility to identify and refer unauthorized use
of the card for supervisory action. Also, to reduce the risk of travel card abuse, the
authorized charge limit could be reduced during the time an employee is not expected to
travel and increased when travel is expected. However, this process had not been
initiated during the time of our fieldwork.

Delinquent Travel Card Payments

Twenty-one of 49 (43 percent) employees were late with their payments, but they all
eventually paid their balances in full. Citibank had cancelled 1 card for non-payment
over 90 days, and 4 were at one time in pre-suspension or warning of suspension status
because payment had not been made within 60 days.

After a travel card is cancelled, Citibank will not issue another card. Therefore, the
Commission granted the employee an exemption from using a travel card and allowed the
employee---as a Special Central Account user-to charge only air transportation to the



                                                         Office of Inspector General
                                                                u.s. International Trade Commission
                                             6
Evaluation of the Commission's Travel Program


Commission's CBA. Citibank placed the remaining 20 accounts back in open/active
status by the end of our fieldwork.

Employees must satisfy in good faith their obligations as citizens, including all just
financial obligations, according to Directive 4504.0, Personnel.Disciplinary and Adverse
Action, dated 9/28/81 Table of Offenses and Penalties Number 13 "Failure to honor valid
debts or legal obligations" and 5 CFR 2635.101(12) in the Standards of Ethical Conduct
issued by the U.S. Office of Government Ethics. Finally, the agreement signed by the
employee prior to receiving the individual travel card includes a disclosure informing the
employee of his/her responsibilities to pay for charges to the account.

Although not included in our sample of 49 cases, we found that one other employee had
the card cancelled by Citibank for non-payment. In the event this employee is directed to
travel again, the Commission will either have to withdraw the travel request or grant an
exemption from using a government contractor-issued travel card.

One tool available to the Commission that could help reduce delinquencies is split-
disbursement. Split-disbursement works as follows: on filing an approved expense
report, the traveler initiates the authorization for payment directly to Citibank for travel
card charges claimed on the expense report with the remaining reimbursable paid to the
traveler. The Commission could require a split-disbursement for employees who meet
an established criterion, such as a one-time delinquency occurrence.

Late Filing of Travel Expense Report

Of the 49 travel expense reports reviewed, 32 travelers (65 percent) did not file their
expense reports within 5 working days after their return from travel. FTR 301.52.7 states
employees must submit their travel claims within 5 working days after the completion of
their trip or every 30 days if continuous travel is involved. The longer the employee
waits to complete expense reports, the capacity of both the employee and approving
official diminishes with respect to recalling any uniqueness to the situation or purpose of
travel. Also, there is a greater risk of losing receipts, and as discussed above, late filings
may have contributed to delinquencies in travel card payments.

Required Support Not Maintained

Employees we reviewed maintained the required supporting documentation for expenses
claimed. However, one employee received an air transportation upgrade without
sufficient support. At our request, the employee provided additional support and stated
that the supervisor had been verbally provided details for the special need. In our
opinion, an informal process for granting an exemption exposes the Commission to
potential integrity issues. Furthermore, FTR 301.13.1-3 expressly outlines the required
process for requesting and approving special needs.




                                                           Office of Inspector General
                                                                 u.s. International Trade Commission
                                              7
Evaluation of the Commission's Travel Program


Lack of Separation of Duties

The Commission's official travel policy for domestic travel authorizes Commissioners to
approve their own plans and expense reports. For foreign travel, the Chairman is the
                   2
approving official. From our selected sample of cases, we found that the Commissioners
followed the established approval policy and complied with all travel requirements.
However, sound management policy stresses the need for a separation of duties. We
strongly suggest that the Commission establish an internal control to compensate for the
lack of separation of duties in which each Commissioner has by statute the authority to
authorize and approve her or his own domestic travel. For example, a designated
individual could review travel plans and expense reports and render an opinion for a
Commissioner to consider. By obtaining this opinion, the Commission would limit its
exposure to questionable travel abuse.

Post Reviews Were Not Performed

Although GSA has no specific requirement to perform post travel audits on expense
reports, such audits provide a sound management control. Post reviews would serve as
advice and a reminder to travelers and supervisors of their responsibilities as well as a
deterrent from committing wrongful acts. The review could be performed monthly on a
sample of completed expense reports. In the event an unallowable expense had been
paid, both the traveler and supervisor should be alerted to prevent future errors, and the
traveler should be required to reimburse the Commission. Finance would make better use
of its time performing these post reviews rather than continuing the current practice of
reviewing approved miscellaneous expenses that usually are immaterial.

Recommendation 2:
The Director, Office of Administration should assign an individual with the responsibility
to: (a) monitor travel card use and payments to ensure the card was used for approved
official government travel and expenses were timely paid; (b) refer violations for
supervisory action; and (c) perform a quality review on completed travel documentation.

Management Response and OIG Comment:
The Commission agreed with the recommendation. The Director of Administration has
tasked the Director of Finance with establishing written procedures and implementing
this recommendation. This task will be completed by December 30, 2002.

The OIG concurred with the above actions.




2 Although not exercised for foreign travel, Commissioners were granted authority under 19
U.S.C. § 133l(c) to approve their own travel related documents and the documents of their
personal staff, for both foreign and domestic.   '


                                                            Office of Inspector General
                                                                  u.s. IntenlLlti(mal Trade Commission
                                               8
Evaluation of the Commission's Travel Program


Recommendation 3:
The Director, Office of Administration should: (1) remind the Commission's supervisors
and staff of Directive 4504.0, Personnel Disciplinary and Adverse Action which
established standards and procedures to be followed when disciplinary and adverse
actions must be taken against employees, and (2) develop a mechanism to monitor the
status and final action on cases referred to a supervisor.

Management Response and DIG Comment:
The Commission agreed with the recommendation. The Director of Administration has
tasked the Director of Personnel with reminding Commission supervisors and staff of
Directive 4504.0 and their inherent responsibilities regarding disciplinary action, as well
as developing and maintaining a follow up system, in coordination with the Director of
Finance, to monitor the status and ensure action of those cases referred to supervisors.
Action on this recommendation should be completed by November 30,2002.

The   oro concurred with the above actions.
Recommendation 4:
To reduce the risk of travel card abuse, the Chairman should issue an Administrative
Order directing supervisors to identify and communicate each cardholder's planned travel
in order to have the cardholder's authorized charge limit modified accordingly. The
Administrative Order should provide the supervisors with guidance on performing the
task to ensure it is cost effective and not a burdensome process. Additionally,
consideration should be given to requiring a split-disbursement on future travel expenses
for employees who have been delinquent in paying the government's travel card
contractor.

Management Response and DIG Comment:
The Commission agreed with the intent of the recommendation but not the specific
action. The Office of Administration will look at alternatives, including consulting with
Citibank and Zegato to identify other, perhaps less burdensome alternatives. For
example, automated modifications to card limits generated by approved travel
authorizations would achieve the same effect and require no action from supervisors.
The Director of Finance will research and evaluate the costs and benefits for further
strengthening card controls. The Director of Finance will also review the practicality of
requiring split disbursements of employees who have been habitually late in paying the
travel card contractor. An evaluation of options for strengthening card controls, and
implementation dates if applicable, will be prepared by the Office of Finance by
December 30, 2002.

The ora concurred with the above actions. When implemented, the above actions will
meet the intent of Recommendation 4.




                                                         Office of Inspector General
                                                                u.s. International Trade Commission
                                              9
Evaluation of the Commission's Travel Program


       C. Cost Savings and Additional Revenue Could Be Realized

Administering CBA activity is titne consuming, and therefore, costly. At the employees'
request, the Commission offered the option of obtaining a travel card that is billed
directly to the: (a) cardholder - individual travel card, or (b) Commission - CBA. For
the CBAs, the Office of Finance must reconcile charges listed on the Citibank statement
to the traveler's expense report before authorizing payment to Citibank and the remaining
balance to the traveler. The Director of Finance could not quantify the cost to administer
CBAs because processing time was not tracked. At the time of our audit, 22 employees
had aCBA.

One of the purposes of the Travel and Transportation Act of 1998 was to reduce and
curtail the use of travel advances and the cost of maintaining CBAs for federal agencies.
This was to be accomplished by ensuring all employees had individual travel cards.
Implementing the split-disbursement option could reduce processing costs, satisfying the
employees, and enhance rebate revenue. By selecting this option, the Conunission would
limit its administrative costs and increase its rebates since payment would be authorized
as soon as the traveler filed an approved expense report rather than waiting until Citibank
issued its monthly bill. Speed of pay is one factor used by Citibank when determining
the percentage of rebate due to an agency.

Recommendation 5:
The Director, Office of Administration should discontinue offering CBAs. For those
currently holding a CBA travel card, information on the split-disbursement process
should be provided to encourage those cardholders to obtain an individual travel card.

Management Response and OIG Comment:
The Commission agreed with the recommendation. The Office of Finance no longer
offers CBAs to Commission employees. The Director of Finance will brief those
employees currently with CBAs on the new procedures utilizing split-disbursements for
CBA travelers, and encourage them to obtain individual travel cards. Action on this
recommendation will be completed by December 30, 2002.

The OIG concurred with the above actions.




                                                         Office of Inspector General
                                                               u.s. International Trade Commission
                                            10
Evaluation of the Commission's Travel Program


       D. Positive Steps Were Taken to Provide Strong Controls and User
          Satisfaction

By implementing Zegato, the Commission enhanced its existing controls 3 and added
additional controls that more fully adhere to the FTR. Additionally, on several occasions
the Commission evaluated employee satisfaction with the Zegato system. Presented
below are some of the controls identified during our review as well as customer
satisfaction survey results.

Controls

Zegato adequately addressed the FTR requirements. Our crosswalk analysis between the
system and critical FTR requirements found that Zegato automatically addressed the
requirements. For example, the correct per diem and lodging were automatically
charged. Also, the traveler was required to supply a justification when an expense
exceeded a pre-specified amount, and the traveler's assigned approving official was
alerted that a justification required approval by a flashing "j" appearing when the request
was accessed. Details on the results of the crosswalk are presented as Attachment 2.

Another enhancement included interfacing travel expense/reimbursement transactions
with Finance. Because the transactions were not initially interfaced, we identified that
the Office of Finance processed 3 of 49 expense reports (6 percent) after the mandated
time period. In accordance with FTR 301-52.17, the agency must reimburse employees
within 30 calendar days after the submission of a proper travel claim to the agency's
designated approving officer. According to the Director of Finance, some documents had
not been timely received because the Zegato travel expense/reimbursement report was
not completely interfaced with Finance. This problem was resolved in September 2001.

User Satisfaction

To improve Zegato's operational efficiency, the Office of Operations surveyed all
Commission employees approximately 6 months after Zegato's implementation.
Responses to the survey included both positive and negative comments about the Zegato
system. Employees were pleased that Zegato included: MapQuest; partial day
calculation; and many flight options. Also, employees were satisfied with the customer
support services. Negative comments included: poor implementation; numerous flaws;
time consuming; not well organized; not enough flexibility; and not user friendly.

The Travel and Transportation Management Officer provided the results of the survey on
two different occasions. The Officer invited all Commission employees to attend a

3 It should be noted that for this audit, we did not perform an in-depth evaluation of
controls in the Zegato system because we were concurrently performing an audit on the
security of all sensitive electronic information at the Commission, and we will report our,
results accordingly.

                                                         Office of Inspector General
                                                               u.s. Intemati(mal Trade Commission
                                            11
Evaluation of the Commission's Travel Program


Travel Meeting to share the positive comments and provide an explanation or status on
remedies for the negative comments. According to the Officer, the Office of Operations
recently discussed conducting another survey, but no further action had been taken as of
the end of our fieldwork.

In an effort to continually improve user satisfaction with Zegato, we suggest that the
Office of Operations periodically conduct a survey and provide feedback on its results.
Comments provided during our interviews suggest that users have issues that should be
addressed. Examples of recent comments and solutions/reasons are summarized and
provided as Attachment 3.

Recommendation 6:
The Director of the Office of Operations should periodically survey the Zegato users and
provide feedback to ensure continued improvement of customer satisfaction.

Management Response and OIG Comment:
The Commission agreed with the recommendation. The Director of Operations will
continue to evaluate customer satisfaction on an annual basis.

The 010 concurred with the above actions.




                                                        Office of Inspector General
                                                              u.s. International Trade Commission
                                            12
                                                                                Attachment 1

Evaluation of the Commission's Travel Program

      GOVERNING POLICIES AND PROCEDURES AGENCIES ARE TO
                 ESTABLISH (41 CFR § 301-70.102)

You must establish policies and procedures of governing:

           (a)    Who will determine what method of transportation is more
                  advantageous to the Government;

           (b)    Who will approve any of the following:
                   (I) Use of premium class service under Sec. 301-10.123, Sec. 301-
                       10.124, Sec. 301-10.162 and Sec. 301-10.183 of this chapter;
                   (2) Use of a special-reduced fare or reduced group or charter fare;
                   (3) Use of an extra-fare train service under Sec. 301-10.164;
                   (4) Use of ship service;
                   (5) Use of a foreign ship;
                   (6) Use of a foreign air carrier;

          (c)     When you will:
                   ( 1) Require the use of a Government vehicle;
                   (2) Allow the use of a Government vehicle; and
                   (3) Prohibit the use of a Government vehicle;

          (d)     When you will consider use of a POV advantageous to the
                  Government, such as travel to/from common carrier terminals, or
                  transportation to a TDY location;

          (e)     Procedures for claiming POV reimbursement;

          (f)     When you will allow use ofa special conveyance (e.g. commercially
                  rented vehicles);

          (g)     What procedures an employee must follow when he/she travels by an
                  indirect route or interrupts travel by a direct route; and

          (h)     For local transportation whether to reimburse the full amount of
                  transportation costs or only the amount by which transportation costs
                  exceed the employee's normal costs for transportation between:
                    (1) Office or duty point and another place of business;
                    (2) Places of business; or
                    (3) Residence and place of business other than office or duty point.




                                                        Office of Inspector General
                                                              u.s. Intematicmal Trade Commission
                                           13
                                                                                      Attachment 2

   Evaluation of the Commission's Travel Program                                    OIG..AR..03..02

                       CROSSWALK BETWEEN ZEGATO TRAVEL SYSTEM
                           AND FEDERAL TRAVEL REGULATIONS

   As part of the evaluation of the Commission Travel Program, a crosswalk was performed
   between critical FTR requirements and whether they were embedded in the Zegato Travel
   System. The table below details the results.


                                                MeetFTR
FTR Reference               Description        Requirement                      Comments

301-2.1               Need authorization to    Yes           Before any tickets can be purchased,
                      travel                                 Zegato requires that, at a minimum,
                                                             the Cost Center Certifier and the
                                                             immediate supervisor approve the
                                                             travel plan submitted by the employee.
                                                             The system sends an email to each
                                                             approver informing them that they
                                                             have documents awaiting approval. If
                                                             the approval is not received, the travel
                                                             plan sits "under review" on the
                                                             system's desktop of the appropriate
                                                             approving official.

301-2.5 (a), (b),     Travel arrangements      Yes           Zegato contained a designated
(c), (e), (g), (i),   that require specific                  approval chain for the travel plan and
0), (k), (m), (n),    authorization or prior                 expense report that required the
(0)                   approval                               Chairman's approval in addition to the
                                                             designated supervisor and cost center
                                                             certifier for the following:
                                                             (a) Premium-class
                                                             (b) Foreign air carrier;
                                                             (c) Reduced fares for a group;
                                                             (e) Extra-fare train service;
                                                             (m) Foreign travel expenses; and
                                                             (n) Acceptance of payment from a
                                                                 non-federal source for travel
                                                                 expenses.




                                                             Office of Inspector General
                                                                   u.s. Inrematifmal Trade Commission
                                                 14
                                                                                   Attachment 2

  Evaluation of the Commission's Travel Program


                                            MeetFTR
FTR Reference         Description          Requirement                      Comments

301-2.5                                                  Except for the Chairman's approval,
(continued)                                              the designated approval chain also
                                                         applies to the below travel plan and
                                                         expense report:
                                                         (g) Rental car;
                                                         (i) Reduced per diem rate;
                                                         U) Actual expense
                                                         (k) Emergency travel expenses
                                                         (0) Attendance at a conference
                                                              expenses.

                                                         Without approval by each in the
                                                         designated approval chain, the system
                                                         will cease further processing and
                                                         remain on the desktop of the
                                                         appropriate approving official.

301-10.106      Basic requirements for     Yes           Zegato requires the Chairman, along
                using airlines                           with the designated approving
                                                         officials, to approve all travel plans
                                                         requiring premium class/first class
                                                         tickets or foreign travel.

301-10.110      Use of contract            Yes           Since the use of contract passenger
                passenger transportation                 transportation service for personal
                service for personal                     travel is prohibited, Zegato's
                travel                                   requirement to include a purpose for
                                                         the trip would alert the approving
                                                         officials of non-business related travel.
                                                         Also, before tickets are purchased, the
                                                         system requires approval by the Cost
                                                         Center Certifier and immediate
                                                         supervisor.




                                                         Office of Inspector General
                                                                u.s. Internatirmal Trade Commission
                                             15
                                                                                   Attachment 2

  Evaluation of the Commission's Travel Program


                                              MeetFTR
FTR Reference         Description            Requirement                     Comments

301-10.112      Different airlines furnish   Yes           When no contract carrier is available
                same service at different                  and the traveler selects a preferred
                rates                                      airline, Zegato informs them of any
                                                           options that are the same or lesser cost.
                                                           The employee must supply
                                                           justification when choosing a non-
                                                           contract carrier or the more expensive
                                                           flight, otherwise the system will not
                                                           proceed any further. The supervisor is
                                                           then required to approve or disapprove
                                                           it.

301-10.123 &    Use of first-class or        Yes           Zegato requires the Chairman, along
301-10.124      premium-class airline                      with the designated approving
                accommodations                             officials, to approve all travel plans
                                                           requiring premium class/first class
                                                           tickets.

301-11.7        Maximum per diem             Yes           Zegato will only allocate a per diem
                reimbursement rate                         rate based on the approved rate for the
                                                           Temporary Duty location




                                                           Office of Inspector General
                                                                  u.s. Intenwtimwl TruJe Commission
                                               16
                                                                                       Attachment 3

Evaluation of the Commission's Travel Program

            USER COMMENTS ON THE ZEGATO TRAVEL SYSTEM

Presented below are summarized examples of comments made by the Commission's employees
and observations we made during the review of the Zegato Travel System. The Travel and
Transportation Management Officer provided the solution, reason, or status on the comments.

   •   Several employees found the system easy to navigate. It was noted that these individuals
       had extensive knowledge of the Internet or had participated in the Zegato training.

   •   The Zegato Web Pages do not have a "Back" button and the use of the browser's "Back"
       button often results in information being lost.
       Solution: Users were confusing the "back" button on the browser with Zegato 's "back"
       button. To avoid this problem, Zegato's "back" button was made larger to alert the user
       ofthis feature.

   •   The system is very unforgiving to error and one error can mean repeating up to an hour's
       worth of work.
       Solution: When an error is made or a modification is needed, the modification button
       should be used; no data will be lost.

   •   Some processes do not have information input boxes resulting in taking an inordinate
       amount of time to complete a travel plan. For example, the input of the destination city
       and state. The system requires one to go through a list of cities, states and countries and
       does not allow the simple input of the city, state, and country.
       Reason: Requiring the use ofa drop-down menu to select the traveler's destination is a
       control mechanism to charge the appropriate per diem.

   •   Several computer savvy employees pointed out that the system was made to run on the
       browser "Internet Explorer". The Commission has a "Netscape" platform and not all
       features work properly or as quickly.
       Reason: The Office ofInformation Services only supplies supportfor Netscape.

   •   Some processes need intervention such as renting a van when multiple travelers are
       involved.
       Reason: Official policy and federal regulations require each traveler to obtain an
       approved travel plan.

   •    Management needs customized reports.
       Status: The Travel and Transportation Management Officer advised the auditors that
       special reports were being developed but recently stopped due to a briefsuspension of
       some Zegato services. The services were reinstated, and customized reports will be
       further developed. In fact, one manager requested a special report and provided a pro-
       forma ofthe report. The Travel and Transportation Management Officer stated that
       work began on this report and will resume in the near future.




                                                             Office of Inspector General
                                                                    u.s. IntematiuTlal Trade CommissioTl
                                               17
                                                         Attachment 4




OFFICE OF OPERATIONS




 ~TJ:TED      STATES INTERNATIONAL TRADE COMMISSION

                                  WASHINGTON, DC 20436



September 26, 2002


MEMORANDUM                                                    OP-Z-020


TO:        The Chairman          ~'iJ7 .~
                          .._.
                              A~\:~
                         .>, /-r'
                        ~-       A,        '\l   '

FROM:      Robert Rogowsky \ 0-
           Director of Operations

Subject:   Response to Recommendations to the OIG Evaluation of the
           Commission's Travel Program

This memorandum is the Office of Operation's response to the OIG's draft audit
report, Evaluation of the Commission's Travel Program, Below is the action plan
for implementing recommendations 1 and 6.

Recommendation 1:
The Directors of the Offices of Operations and Administration should coordinate
their efforts to develop and implement a process to ensure that: (1) policies and
procedures posted on the Travel web page are approved by the Commission, and (2)
an updated Official Temporary Duty Travel Handbook is issued. At a minimum,
the revised handbook should address 41 CFR § 301-70.1 02 requirements and the
issues discussed in this report. Specifically, the handbook should document the
cardholder's and supervisor's responsibility associated with the Travel Program,
e.g., proper use of travel cards including bill payment; timely filing of expense
reports; and obtaining exemption from an FTR requirement.




                                      18
Management Response: Agree

The Office of Administration will work with the Travel and Transportation
Management Officer to develop a draft Administrative Order establishing travel
polices to be approved by the Commission. That Order will also delegate
development of implementing procedures to the Travel and Transportation
Management Officer by November 15, 2002.

The Director of Operations will revise the Official Temporary Duty Travel
Handbook by March 30, 3003 regarding policies and procedures. Part of the
Handbook will include policies and procedures regarding the Commission's Travel
Charge Card Program. Such procedures will be prepared by the Office of
Administration.


Recommendation 6:
The Director of the Office of Operations should periodically survey the Zegato
users and provide feedback to ensure continued improvement of customer
sati sfaction.

Management Response: Agree

The Director of Operations has held more than 10 different forums to obtain
feedback and customer satisfaction since implementing Zegato. The Director of
Operations will continue to evaluate customer satisfaction on an annual basis.



               x                             Disapprove:- - - - - - - - -


~@-                                          --=U   30\ O~
Chairman, Deanna Tanner Okun                 Date




cc:    The Commission
       Inspector General
       Travel and Transportation Management Officer




                                        19
                                                        Attachment 4




 UNITED STATES INTERNATIONAL TRADE COMMISSION

                             WASHINGTON, DC 20436


September 23,2002                                                          AD-Z-I06

MEMORANDUM

TO:             Inspector General

FROM:           Stephen A. McLaughlin, Director
                Office of Administration

SUBJECT:        Response to Draft Report: Evaluation of the Commission's Travel
                Program

This memorandum is the Office of Administration's response to the Draft Report:
Evaluation of the Commission's Travel Program. This response includes the action
plan for implementing recommendations 2, 3, and 5 which are directed to the Office of
Administration, as requested in your memorandum IG-Z-032.

Recommendations

2. The Director of Administration should assign an individual with the responsibility
to: (a) monitor travel card use and payments to ensure the card was used for approved
official government travel and expenses were timely paid; (b) refer violations for
supervisory action; and (c) perform a quality review on completed travel
documentation.

Response: Agree

The Director of Administration has tasked the Director of Finance with establishing
written procedures and implementing this recommendation. This task will be
completed by December 30,2002.


3. The Director, Office of Administration should: (1) remind the Commission's
supervisors and staff of Directive 45~.0, Personnel Disciplinary and Adverse Action,
which establishes standards and procedures to be followed when disciplinary and
adverse actions must be taken against employees, and (2) develop a mechanism to
monitor the status and final actions on cases referred to a supervisor.




                                     20
                                            -2-


 Response: Agree

 The Director of Administration has tasked the Director of Personnel with reminding
 Commission supervisors and staff of Directive 45~.0 and their inherent
 responsibilities regarding disciplinary action, as well as developing and maintaining a
 follow up system, in coordination with the Director of Finance, to monitor the status
 and ensure action of those cases referred to supervisors.

 Action on this recommendation should be completed by November 30,2002.


 5. The Director, Office of Administration should discontinue offering CBAs. For
 those currently holding a CBA travel card, information on the split-disbursement
 process should be provided to encourage those cardholders to obtain an individual
 travel card.

 Response: Agree

 The Office of Finance no longer offers CBAs to Commission employees. The
 Director of Finance will brief those employees currently with CBAs on the new
 procedures utilizing split disbursements for CBA travelers, and encourage them to
 obtain individual travel cards.

 Action on this recommendation will be completed by December 30,2002.




 APprove:L                                        Disapprove:        _



~n'Ch~nnan                                        q[2Lf IOL
                                                     ,
                                                  Date
                                                            I




 cc:     The Commission
         Office of Personnel
         Office of Finance
         Office of Operations




                                       21
                                                      I-\ucu;nm ent 4




UNITED STATES INTERNATIONAL TRADE COMMISSION

                            WASHINGTON, DC 20436



September 30, 2002                                         AD-Z-lll

MEMORANDUM

TO:           Inspector General

FROM:         Stephen A. McLaughlin, Director
              Office of Administration

SUBJECT:      Response to Draft Report: Evaluation of the Commission's
              Travel Program

This memorandum is the Office of Administration's response to the draft report:
Evaluation of the Commission's Travel Program, that includes the action plan for
implementing recommendation 4.

Recommendation

4. To reduce the risk of travel card abuse, the Chairman should issue an
Administrative Order directing supervisors to identify and communicate each
cardholder's planned travel in order to have the cardholders authorized charge
limit modified accordingly. The Administrative Order should provide the
supervisors with guidance on performing the tasks to ensure it is cost effective
and not a burdensome process. Additionally, consideration should be given to
requiring a split-disbursement on further travel expenses for employees who have
been delinquent in paying the governments travel card contractor.

Response: Agree

The Office of Administration agrees with the intent of this recommendation.
However, we propose looking at alternatives, including consulting with Citibank
and Zegato, to identify other, perhaps less burdensome alternatives. For
example, automated modifications to card limits generated by approved travel
authorizations would achieve the same effect and require no action from
supervisors. The Director of Finance will research and evaluate the costs and
benefits for further strengthening card controls. The Director of Finance will



                                   22
                                       2

also review the practicality of requiring split disbursements of employees who
have been habitually late in paying the travel card contractor.

An evaluation of options for strengthening card controls, and implementation
dates if applicable, will be prepared by the Office of Finance by December 30,
2002.




Approve:   /                                 Disapprove:        _


c~
Deanna Tanner Okun
Chairman

cc:    The Commission
       Office of Personnel
       Office of Finance
       Office of Operations




                                 23
